March 25, 2002


JAMES J. ROWAN, JR.

ACTING CHIEF POSTAL INSPECTOR


SUBJECT: 	Audit Report - Postal Inspection Service Evidence Handling Program
          (Report Number OV-AR-02-002)

This report presents the results of our audit of the Postal Inspection Service Evidence
Handling Program (Project Number 01JR002OV000). This audit was self-initiated. Our
objectives were to determine whether the Inspection Service effectively maintained,
controlled, and disposed of collected evidence.

The audit revealed that the Inspection Service effectively safeguarded collected
evidence, but could improve their practices for maintaining and controlling evidence. In
addition, we could not determine whether all evidence was disposed of in accordance
with Inspection Service policy because disposal actions were not appropriately
documented in case files. Although we found areas for improvement in the Inspection
Service’s evidence handling program, we did not find any instances in which the
integrity of evidence reviewed was jeopardized. We recommended that management
provide periodic refresher training in, and strengthen management oversight of,
evidence handling and disposal practices. Management agreed with our
recommendations and has planned corrective actions addressing the issues identified in
this report. Management’s comments and our evaluation of these comments are
included in this report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Cathleen A.
Berrick, director, Oversight, at (703) 248-2100, or me at (703) 248-2300.



Kirt West
Assistant Inspector General
 for Congressional, Oversight, and Legal Services

Attachment

cc: 	John M. Nolan
    Susan M. Duchek
Postal Inspection Service Evidence Handling Program                 OV-AR-02-002




                           TABLE OF CONTENTS


 Executive Summary
                                                 i

 Part I

 Introduction                                                       1


    Background                                                      1

    Objective, Scope, and Methodology                               1

    Prior Audit Coverage                                            3


 Part II

 Audit Results                                                      4


    Maintaining, Controlling, and Disposing of Collected Evidence   4

    Recommendations                                                 7

    Management’s Comments                                           8

    Evaluation of Management’s Comments                             8


 Appendix. Management’s Comments                                    9





                                        Restricted Information
Postal Inspection Service Evidence Handling Program	                               OV-AR-02-002



                                  EXECUTIVE SUMMARY
 Introduction	                 This report presents the results of our self-initiated audit of
                               the Inspection Service evidence handling program. Our
                               objectives were to determine whether the Inspection Service
                               effectively maintained, controlled, and disposed of collected
                               evidence.

 Results in Brief              The audit revealed that the Inspection Service effectively
                               safeguarded collected evidence. Specifically, all high value
                               evidence was generally stored in evidence rooms and dual
                               access control was maintained, as required. In addition, low
                               intrinsic value evidence was either stored in evidence rooms
                               or in locked rooms or file cabinets controlled by case
                               inspectors.

                               Although the Inspection Service effectively safeguarded
                               collected evidence, the Inspection Service could improve
                               their practices for maintaining, controlling, and disposing of
                               evidence. Specifically, postal inspectors did not always
                               document the transfer of evidence, tag or seal evidence,
                               appropriately document evidence in inventory logs and
                               reports, and on attached tags and labels; or verify currency
                               with currency verification forms as required by Inspection
                               Service policy.

                               In addition, we could not determine whether all high-value
                               evidence was properly disposed of because supporting
                               documentation in case files was sometimes missing,
                               inaccurate, or incomplete. Although we found areas for
                               improvement in the Inspection Service’s evidence handling
                               program, we did not find any instances in which the integrity
                               of evidence reviewed was jeopardized.

 Summary of                    We recommended that management require periodic
 Recommendations               refresher training on evidence handling and disposal
                               procedures for inspectors, and strengthen management
                               oversight to ensure that evidence deficiencies are identified
                               and corrected.

 Summary of                    Management agreed with both recommendations, stating
 Management’s                  that they will provide refresher training on evidence handling
 Comments                      and disposal procedures to Inspection Service personnel,
                               beginning no later than September 30, 2002. Management
                               further stated that they will revise the Inspection Service
                               Manual, by September 30, 2002, to require more extensive

                                                   i
                                         Restricted Information
Postal Inspection Service Evidence Handling Program                              OV-AR-02-002



                               reviews of evidence handling and disposal procedures by
                               team leaders and evidence control officers. Management’s
                               comments, in their entirety, are included in the appendix of
                               this report.

 Overall Evaluation of         Management’s comments are responsive to our
 Management’s                  recommendations.
 Comments




                                                  ii
                                        Restricted Information
Postal Inspection Service Evidence Handling Program                                                      OV-AR-02-002



                                              INTRODUCTION
    Background                      The Inspection Service categorizes evidence as high value
                                    or low intrinsic value. High value evidence includes
                                    controlled substances, firearms and explosives, cash or
                                    bearer instruments valued at $100 or more, jewelry,
                                    precious metals and gems, and individual property items
                                    with an estimated value of $1,000 or more, such as
                                    recovered stamp stock or computers. Low intrinsic value
                                    evidence includes all other items not categorized as high
                                    value.

                                    The Inspection Service centrally tracks and reports all high
                                    value evidence through the Inspection Service
                                    Property/Evidence Management System. As of April 13,
                                    2001, the Property/Evidence Management System identified
                                    over 3,800 items of high value evidence within the
                                    Inspection Service. The Inspection Service does not
                                    centrally track or report low intrinsic value evidence.

                                    The Inspection Service Manual, Chapter 440,
                                    “Property/Evidence Handling Procedures,” governs the
                                    Inspection Service’s evidence handling program. The
                                    Inspection Service Manual requires that Inspection Service
                                    employees maintain rigid control over acquired evidence so
                                    that a credible chain of custody is established and
                                    maintained. The Inspection Service Manual further requires
                                    that evidence be properly reported, protected, and disposed
                                    of before a case is closed.

    Objectives, Scope,              Our objectives were to determine whether the Inspection
    and Methodology                 Service effectively maintained, controlled, and disposed of
                                    collected evidence. To accomplish our objectives related to
                                    maintaining and controlling evidence, we reviewed the
                                    Inspection Service Manual pertaining to evidence handling
                                    procedures. We also randomly selected and visited
                                    20 Inspection Service locations1 to assess their procedures
                                    for maintaining and controlling evidence. At the locations



1
 The Inspection Service locations visited were: Tampa, Florida, field office; Orlando, Florida, domicile; Jacksonville,
Florida, domicile; Los Angeles, California, Processing and Distribution Center domicile; Linthicum, Maryland,
domicile; Baltimore, Maryland, field office; Merrifield, Virginia, Processing and Distribution Center domicile;
Birmingham, Alabama, domicile; Gulf Coast division headquarters; North Houston, Texas, domicile; Dallas, Texas,
Main Post Office domicile; Hicksville, New York, domicile; Bronx, New York, domicile; Edison, New Jersey, domicile;
Manchester, New Hampshire, domicile; New Haven, Connecticut, domicile; Columbus, Ohio, domicile; San Juan,
Puerto Rico, field office; Portland, Oregon, domicile; and Northern California division headquarters.

                                                           1
                                               Restricted Information
Postal Inspection Service Evidence Handling Program                                               OV-AR-02-002



                                  visited, we randomly selected and reviewed samples2 of
                                  high value evidence on hand as of April 13, 2001, and low
                                  intrinsic value evidence on hand as of April 23, 2001, for
                                  open cases. We interviewed Inspection Service case
                                  inspectors and officials from the Forensic and Technical
                                  Services Division concerning Inspection Service practices
                                  for maintaining and controlling collected evidence.

                                  To accomplish our objective related to the disposal of
                                  evidence, we reviewed the Inspection Service Manual
                                  regarding evidence disposal procedures. We also randomly
                                  sampled all high value evidence disposed of from cases that
                                  were closed from October 1, 2000, through June 15, 2001.
                                  We reviewed closed case files at four Inspection Service
                                  Operations Support Group offices.3 We interviewed
                                  Inspection Service case inspectors from the Inspection
                                  Service’s 18 divisions and officials from the Forensic and
                                  Technical Services Division concerning the Inspection
                                  Service’s procedures for disposing of collected evidence.

                                  We benchmarked with officials from the Bureau of Alcohol,
                                  Tobacco, and Firearms; United States Customs Service;
                                  United States Marshals Service; Defense Criminal
                                  Investigative Service; and Department of Treasury, Office of
                                  Inspector General, to determine their procedures for
                                  maintaining, controlling, and disposing of collected
                                  evidence. We did not independently verify information
                                  received from these agencies.

                                  We conducted the audit from March 2001 through
                                  March 2002 in accordance with generally accepted
                                  government auditing standards. We reviewed management
                                  controls related to the Inspection Service’s procedures for
                                  maintaining, controlling, and disposing of collected
                                  evidence. Specifically, we reviewed controls designed to
                                  ensure that the chain of custody was maintained, evidence
                                  was appropriately sealed and tagged, currency and
                                  negotiable instruments were appropriately verified,
                                  documentation was adequately prepared, supervision was
                                  maintained, and evidence was properly disposed of and
                                  safeguarded. We did not identify any material control
                                  weaknesses. We assessed the accuracy of data contained
2
 The following case categories were excluded from review because they generally contain little, if any, collected
evidence: Program Prevention, Program Security, and Miscellaneous (Office of Inspections Cases, Recruitment, and
Polygraph).
3
 The four Inspection Service Operations Support Group offices visited were Bala Cynwyd, Pennsylvania; Chicago,
Illinois; Memphis, Tennessee; and South San Francisco, California.

                                                        2
                                             Restricted Information
Postal Inspection Service Evidence Handling Program                                OV-AR-02-002



                               in the Inspection Service Database Information System and
                               in the Inspection Service Property/Evidence Management
                               System and determined that it was sufficient to support our
                               audit conclusions. We discussed our conclusions and
                               observations with management officials and included their
                               comments, where appropriate.

 Prior Audit Coverage          We did not identify any prior audits or reviews related to the
                               Inspection Service’s evidence handling program.




                                                  3
                                        Restricted Information
Postal Inspection Service Evidence Handling Program                                                        OV-AR-02-002



                                              AUDIT RESULTS
    Maintaining,                     The Inspection Service effectively safeguarded collected
    Controlling, and                 evidence. Specifically, high value evidence reviewed was
    Disposing of                     generally stored in evidence rooms and dual access control
    Collected Evidence               was maintained, as required. In addition, low intrinsic value
                                     evidence was stored either in evidence rooms or in locked
                                     rooms or file cabinets controlled by case inspectors.
                                     Although the Inspection Service effectively safeguarded
                                     evidence, we found that they could improve their practices
                                     for maintaining, controlling, and disposing of collected
                                     evidence.

                                     The Inspection Service Manual, Chapter 445.2, “Maintaining
                                     Custody of Property/Evidence,” requires that all evidence be
                                     properly secured and protected until its final disposition.
                                     The Inspection Service Manual requires that high value
                                     items be stored in a security container, such as a vault or
                                     safe, inside a locked and alarmed evidence room. The
                                     Inspection Service Manual also requires that low intrinsic
                                     value items be kept in a locked file cabinet or locked room
                                     under the exclusive control of the case inspector.

    Maintaining and                  Postal inspectors and evidence custodians did not always
    Controlling Collected            document the transfer of evidence, tag or seal evidence, or
    Evidence                         appropriately document evidence in inventory logs4 and
                                     reports, and on attached tags and labels, in accordance with
                                     Inspection Service policy. We also found that postal
                                     inspectors did not always verify the amount of currency
                                     obtained as evidence with currency verification forms as
                                     required. Although we found that the Inspection Service
                                     could improve their practices for maintaining and controlling
                                     evidence, we did not find any instances in which the integrity
                                     of evidence reviewed was jeopardized.

                                     The Inspection Service Manual, Chapter 441.100, “Chain of
                                     Custody,” requires that a record endorsed by each recipient
                                     of collected evidence be maintained in order to augment the
                                     reliability of testimony regarding the continuity of evidence
                                     handling. The Inspection Service Manual, Chapter 443.11,
                                     “Preserving and Protecting Property/Evidence,” requires that
                                     evidence be sealed in bags, envelopes, etcetera, using
                                     tamper resistant/evident sealing tape, and that the sealing
                                     inspector sign and date across the tape and a portion of the

4
    The Property/Evidence Log summarizes the activity for all evidence obtained or seized for each case.

                                                            4
                                                 Restricted Information
Postal Inspection Service Evidence Handling Program                                                  OV-AR-02-002



                                  container.5 The Inspection Service Manual, Chapter 442.6,
                                  “Tagging and Labeling,” further requires that the
                                  property/evidence tag/labels be attached to all evidence
                                  except documents, and that these labels remain with the
                                  evidence at all times.

                                  The Inspection Service Manual, Chapter 444.21,
                                  “Property/Evidence Log,” and Chapter 446.1, “Transferring
                                  Custody of Property/Evidence,” requires that a
                                  property/evidence log be maintained, and that the
                                  property/evidence log, or the High Value Property/Evidence
                                  Report, reflect evidence transfers. The Inspection Service
                                  Manual, Chapter 443.31, “Securing and Sealing Cash,
                                  Jewelry, Precious Metals, and Gems,” further requires that
                                  before sealing, all cash be double counted by the
                                  seizing/receiving inspector and witnessed, and that a
                                  currency verification form be signed and stored with the
                                  cash.

    Transfer and                  We could not determine whether all high-value evidence
    Destruction of                was transferred6 or destroyed in accordance with Inspection
    Collected Evidence            Service policy, because supporting documentation in case
                                  files was either missing, inaccurate, or incomplete. Although
                                  we could not determine whether all high-value evidence was
                                  properly transferred or destroyed, we did not find any
                                  instances in which the integrity of evidence reviewed was
                                  jeopardized.

                                  The Inspection Service Manual, Chapter 447.37,
                                  “Documentation,” requires that inspectors document the
                                  transfer of evidence through receipts, certificates of delivery
                                  signed by the case inspector, a Hold Harmless Agreement,7
                                  or an inventory of items seized through a search warrant
                                  signed by a recipient. The manual also requires that
                                  destruction certificates be completed and signed and dated
                                  by the case inspector and two witnesses. The Inspection
                                  Service Manual, Chapter 447.4, “Case Closing,” further
                                  requires that all evidence be disposed of prior to case
                                  closure, and documentation supporting the disposal be
                                  maintained in the case file before the case is closed.
                                  Although not required by Inspection Service policy, some

5
 Voluminous documents contained in envelopes, boxes, cartons, file cabinets, etcetera, obtained from a single
source on the same date, do not have to be individually marked or tagged.
6
 Evidence may be disposed of through transfer to forfeiture specialists, rightful owners, the National Forensic
Laboratory, other agencies, or other Inspection Service cases.
7
 A Hold Harmless Agreement is a document used to relieve the Inspection Service from liability associated with a
variety of claims, suits, demands, or expenses of litigation.

                                                         5
                                              Restricted Information
Postal Inspection Service Evidence Handling Program                                OV-AR-02-002



                              inspectors required owners to sign an itemized inventory of
                              evidence returned to them as proof that all evidence was, in
                              fact, returned. This inventory supplemented required return
                              receipts that do not identify the specific items or quantity of
                              items returned. We also found that another federal law
                              enforcement agency surveyed mailed an itemized inventory
                              of evidence returned, with a postage-paid return envelope,
                              to the evidence owner to obtain their verification that all
                              evidence was appropriately returned. These practices, if
                              adopted throughout the Inspection Service, could provide
                              inspectors with additional protection from potential claims
                              regarding returned evidence.

 Inspectors’ Awareness        The Inspection Service did not always maintain and control
 of Evidence Handling         collected evidence effectively, or document the disposal of
 and Disposal                 collected evidence, because inspectors did not receive
 Procedures and               periodic training on required evidence handling and disposal
 Management                   procedures. Other than evidence training provided to newly
 Oversight                    appointed inspectors, and periodic training provided to
                              inspectors working in specialized areas, inspectors have not
                              received training in evidence handling or disposal
                              procedures since 1996 or 1997, when new policies and
                              procedures were introduced. As a result, many inspectors
                              interviewed, who we identified as not maintaining,
                              controlling, or disposing of collected evidence in accordance
                              with Inspection Service policy, were not aware that that the
                              identified procedures were required by the Inspection
                              Service Manual.

                              In addition, team leaders and evidence control officers could
                              improve their oversight of evidence handling and disposal
                              practices of assigned inspectors. The Inspection Service
                              Manual, Chapter 448.4, “Team Leader Responsibilities,”
                              requires that team leaders assure the proper reporting,
                              transfer, and disposition of all property and evidence
                              acquired by case inspectors. The Inspection Service
                              Manual, Chapter 448, “Program Management/Oversight,”
                              and Chapter 448.6, “Evidence Control Officer
                              Responsibilities,” further requires that team leaders
                              periodically review selected cases to ensure that evidence
                              logs are properly completed, and tags are appropriately
                              attached and marked. The manual also requires that
                              evidence control officers conduct an annual inventory of all
                              high value evidence maintained within the division.




                                                  6
                                        Restricted Information
Postal Inspection Service Evidence Handling Program	                               OV-AR-02-002




                               Although team leaders and evidence control officers are
                               required to conduct reviews to assure proper reporting,
                               transfer, and disposition of evidence, deficiencies still
                               existed. In addition, the Inspection Service Manual does not
                               specifically require that the reviews assess the documented
                               transfer of evidence; tagging and sealing of evidence;
                               documentation of evidence on logs, reports, tags, and
                               labels; and the verification of cash.

 Importance of                 Although the Inspection Service effectively safeguarded
 Maintaining and               collected evidence, they could compromise the admissibility
 Controlling Collected         of their evidence, and viability of associated criminal cases,
 Evidence Effectively          by not maintaining and controlling evidence in accordance
                               with their policy. In addition, inspectors could subject
                               themselves to unwarranted suspicion if evidence is not
                               handled or disposed of as required, and improperly sealed
                               or counted evidence may not be adequately protected
                               against contamination, loss, or tampering. Due to the
                               importance of collected evidence in support of the Inspection
                               Service’s criminal investigative mission, we believe that the
                               Inspection Service should periodically reinforce required
                               evidence handling procedures through training, and ensure
                               that management exercise more comprehensive oversight
                               so that they can detect, and cause corrective action to be
                               taken on, evidence handling and disposal deficiencies.

 Management’s                  We discussed our audit results with Inspection Service
 Corrective Actions            management. Management has initiated corrective action
                               on all identified deficiencies, and has agreed to revise the
                               Inspection Service Manual to require periodic refresher
                               training on, and strengthen management oversight over,
                               evidence handling and disposal practices. Management
                               plans to begin refresher training by the end of fiscal
                               year 2002, and will emphasize supervisory review and
                               oversight of evidence handling and disposal procedures.

 Recommendation	               We recommend the acting chief postal inspector, modify the
                               Inspection Service Manual to require:

                               1.	 Periodic refresher training on evidence handling and
                                   disposal procedures, with special emphasis on the
                                   documented transfer of evidence, sealing and tagging of
                                   evidence; completion of evidence logs, reports, tags, and



                                                   7
                                         Restricted Information
Postal Inspection Service Evidence Handling Program	                                 OV-AR-02-002




                                   labels; verification of cash with currency verification
                                   forms; and documentation of evidence disposal
                                   procedures.

 Management’s                  Management agreed with the recommendation. The deputy
 Comments                      chief inspector for Investigations agreed to provide periodic
                               refresher training on evidence handling and disposal
                               procedures, beginning no later than September 30, 2002, to
                               all team leaders, assistant inspectors in charge, and
                               inspectors in charge. The deputy chief inspector further
                               stated that during FY 2003, the Inspection Service will
                               develop a method to deliver refresher training to other
                               Inspection Service personnel.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation, and should help ensure Inspection Service
 Comments                      personnel are aware of required evidence handling and
                               disposal procedures.

 Recommendation                We recommend the acting chief postal inspector, modify the
                               Inspection Service Manual to require:

                               2.	 Team leaders and evidence control officers conduct
                                   periodic evidence reviews, and implement corrective
                                   actions for identified deficiencies, that include an
                                   assessment of the documented transfer of evidence,
                                   sealing and tagging of evidence; documentation in
                                   evidence logs, reports, tags, and labels; use of currency
                                   verification forms; and required disposal procedures.

 Management’s                  Management agreed with the recommendation. The deputy
 Comments                      chief inspector for Investigations agreed to revise the
                               Inspection Service Manual, no later than September 30,
                               2002, to expand the required duties of team leaders and
                               evidence control officers related to evidence handling and
                               disposal procedures. Specifically, the Inspection Service
                               Manual will require an assessment of the documentation of
                               evidence transfers, logs, seals and tags; the use of currency
                               verification forms; and evidence disposal procedures.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation, and should improve the Inspection
 Comments                      Services practices for maintaining, controlling, and disposing
                               of collected evidence.

                                                   8
                                         Restricted Information
Postal Inspection Service Evidence Handling Program              OV-AR-02-002




                    APPENDIX. MANAGEMENT’S COMMENTS




                                                      9
                                        Restricted Information
